2311 Douglas Street
Omaha, Nebraska 68102-1214

rOCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. 20-4
ROSANNE L. WOODROOF,
Petitioner,
v.
JOSEPH F. CUNNINGHAM;
CUNNINGHAM & ASSOCIATES, PLC,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of September, 2020, send
out from Omaha, NE 2 package(s) containing 1 copies of the REPLY BRIEF in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:
SEE ATTACHED
To be filed for:
ROSANNE L. WOODROOF
PO Box 3050
Warrenton, VA 20188
(202) 262-0140

RECEIVED
SFP 7 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Subscribed and sworn to before me this 18th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

40134

Jonathan Schraub
Counsel of Record
Schraub Law
19860 Planters Boulevard, Unit D
Boca Raton, Florida 33434
(703) 625-0006
schraublaw@gmail.com
Madelaine A. Kramer
Sands Anderson PC
1497 Chain Bridge Road, Suite 300
McLean, Virginia 22101
(703) 893-3600
mkramer@sandsanderson.com

